CERTIFICATE OF COMPLIANCE
No.

ARTHUR O. ARMSTRONG,
- PETITIONER,
vs.
NASH COUNTY WILSON COUNTY
QUENTIN T. SUMNER, CALVIN WOODARD
KEITH STONE, MAGISTRATE'S OFFICE, JOHN DOE,
-RESPONDENTS.

As required by the Supreme Court Rule 33.1(h), I certify that the petition for a writ of certiorari
contains 3.544 words, excluding the parts of the petition that are exempted by the Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foegoing is true and correct.

Executed on April 14, 2020.

1

[-RECEIVED
APR 2 0 2020
SUPREEM°FrTQURTLn^K

